No. 19-123

In the Supreme Court of the United States
___________

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
___________
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
___________

BRIEF OF AMICI CURIAE OF SERVICES AND
ADVOCACY FOR GLBT ELDERS (“SAGE”)
AND 25 OTHER ORGANIZATIONS SERVING
OLDER AND DISABLED INDIVIDUALS IN
SUPPORT OF RESPONDENTS
__________

LAUREN S. KULEY
Counsel of Record
MARQUES P.D. RICHESON
DYLAN J. YÉPEZ
SQUIRE PATTON BOGGS (US) LLP
201 E. Fourth St.
Suite 1900
Cincinnati, OH 45202
(513) 361-1200
lauren.kuley@squirepb.com
Counsel for Amici Curiae
August 20, 2020

TABLE OF CONTENTS
INTEREST OF AMICI CURIAE .............................. 1
SUMMARY OF THE ARGUMENT ........................ 11
ARGUMENT ........................................................... 12
I.

II.

Older Adults and People with
Disabilities Are At-Risk
Populations Who Need NonDiscriminatory Access to Services
And Supports In Order To Live
With Dignity ...................................... 12
A.

The unique physical,
financial, and social
conditions faced by older
adults and people with
disabilities make them
particularly vulnerable to
the effects of
discrimination ......................... 14

B.

LGBTQ older adults and
people with disabilities are
particularly vulnerable to
discrimination ......................... 18

Older Adults and People with
Disabilities Necessarily Rely on
Government Contractors to
Provide Critical Services and
Supports ............................................. 24

III.

Allowing Government
Contractors to Discriminate
Against Older Adults and People
with Disabilities on the Basis of
Protected Characteristics
Violates Our Nation’s Core
Stated Values and Policies, and
Would Cause Significant Harm ........ 29

CONCLUSION ........................................................ 34

i
TABLE OF AUTHORITIES
Page(s)
Cases
Bragdon v. Abbott,
524 U.S. 624 (1998)..............................................32
Stevens v. Optimum Health Inst.,
810 F. Supp. 2d 1074 (S.D. Cal. 2011) .................32
Stormans, Inc. v. Selecky,
586 F.3d 1109 (9th Cir. 2009)..............................32
Statutes
42 U.S.C. § 12101 (2018) ...........................................31
Other Authorities
Admin. for Cmty. Living, Annual Report on Centers
for Independent Living (2020) .............................. 24
Admin. on Aging, Admin. for Cmty. Living,
2019 Profile of Older Americans (2020) .. 12, 13, 14,
15, 16, 25
Am. Psychol. Ass’n, Older Adults’ Health and AgeRelated Changes: Reality Versus Myth (2017).... 13,
14, 16
Americans with Disabilities Act of 1988: Joint
Hearing on S. 2345 Before the Subcomm. on the
Handicapped of the S. Comm. on Lab. & Hum.
Res. & the Subcomm. on Select Educ. of the H.
Comm. on Educ. & Lab., 100th Cong. (1988)
(statement of Rep. Tony Coelho) .......................... 32
Angela Houghton, Maintaining Dignity: A Survey of
LGBT Adults Age 45 and Older,
AARP Res. (Mar. 2018) .................................. 21, 34

ii
Area Agencies on Aging, Admin. for Cmty. Living
(last updated Apr. 29, 2017) ................................. 25
Budget, Admin. for Cmty. Living
(last updated June 9, 2020) .................................. 24
Ctrs. for Disease Control & Prevention (CDC),
Disability Impacts All of Us
(last updated Sept. 9, 2019) ........................... 13, 15
Disability Rts. Educ. & Def. Fund (DREDF), Health
Disparities at the Intersection of Disability and
Gender Identity: A Framework and Literature
Review (2018) ........................................................ 22
Eldercare Locator: Services Available,
Admin. on Aging ................................................... 26
Erin Fitzgerald, Nat’l Gay & Lesbian Task Force,
No Golden Years at the End of the Rainbow: How a
Lifetime of Discrimination Compounds Economic
and Health Disparities for LGBT Older Adults
(2013) .................................................................... 18
Exec. Order No. 9,346,
8 Fed. Reg. 7183 (May 27, 1943) .......................... 30
Exec. Order No. 10,925,
26 Fed. Reg. 1977 (Mar. 6, 1961) ......................... 30
Exec. Order No. 13,672,
79 Fed. Reg. 42971 (July 21, 2014) ...................... 30
Foster and Adoption Laws, Movement Advancement
Project (MAP) (last updated Aug. 18, 2020) ........ 20
Hum. Rts. Campaign (HRC) & Servs. & Advoc. for
GLBT Elders (SAGE), COVID-19 & LGBTQ Older
People (2020) ......................................................... 33
Ilan H. Meyer, Prejudice, Social Stress, and Mental
Health in Lesbian, Gay, and Bisexual Populations:

iii
Conceptual Issues and Research Evidence,
129 Psychol. Bull. 674 (2003) ............................... 33
Ilan H. Meyer & Soon Kyu Choi, Williams Inst.,
Vulnerabilities to COVID-19 among Older LGBT
Adults in California (2020) .................................. 23
Jeffrey M. Jones, In U.S., 10.2% of LGBT Adults
Now Married to Same-Sex Spouse, Gallup
(June 22, 2017) ..................................................... 20
Leonard Z. Breen, The Aging Individual, in
Handbook of Soc. Gerontology 145
(Clark Tibbitts ed., 1960) ..................................... 31
LGBTQI, Nat’l Alliance on Mental Illness (2020) .. 19
Mayor’s Commission on Aging: Partners and
Providers, City of Philadelphia
(last updated Oct. 23, 2018) ................................. 25
MetLife Mature Mkt. Inst. & Am. Soc’y on Aging,
Still Out, Still Aging: The MetLife Study of
Lesbian, Gay, Bisexual, and Transgender Baby
Boomers (2010) ..................................................... 21
Michael Adams, Pushing for Equality: LGBT Elders
Need Discrimination-Free Access to Care in
Community, Aging Today (2019) ......................... 27
Movement Advancement Project (MAP) et al., LGBT
Older Adults and Health Disparities (2010)........ 19
Movement Advancement Project (MAP) & Servs. &
Advoc. for GLBT Elders (SAGE), Improving the
Lives of LGBT Older Adults (2010)...................... 21
Movement Advancement Project (MAP) & Servs. &
Advoc. for GLBT Elders (SAGE), Understanding
Issues Facing LGBT Older Adults (2017) ............ 20

iv
Movement Advancement Project (MAP), Servs. &
Advoc. for GLBT Elders (SAGE), & Ctr. for Am.
Progress, LGBT Older People & COVID-19:
Addressing Higher Risk, Social Isolation, and
Discrimination (2020)........................................... 23
Nat’l Council on Disability, Highlighting Disability /
Poverty Connection, NCD Urges Congress to Alter
Federal Policies that Disadvantage People with
Disabilities (Oct. 26, 2017) ................................... 15
Nat’l Inst. on Aging, U.S. Dep’t of Health & Hum.
Servs., Social isolation, loneliness in older people
pose health risks (Apr. 23, 2019) .......................... 16
Older Adults, Ctrs. for Disease Control & Prevention
(CDC) (last updated Aug. 16, 2020) ..................... 17
People with Disabilities, Ctrs. for Disease Control &
Prevention (CDC) (last updated Apr. 7, 2020) .... 17
Press Release, Elderly Services moves to mobile meal
delivery amid pandemic, Archdiocese of Miami
(Mar. 16, 2020)...................................................... 28
Press Release, HHS Announces Nearly $1 Billion in
CARES Act Grants to Support Older Adults and
People with Disabilities in the Community During
the COVID-19 Emergency, U.S. Dep’t of Health &
Hum. Servs. (Apr. 21, 2020) ........................... 27, 28
Programs and Servs.,
W. Res. Area Agency on Aging ............................. 26
Request for Information from the Center for FaithBased and Neighborhood Partnerships, Office of
Intergovernmental and External Affairs, HHS,
Admin. for Cmty. Living
(last updated May 7, 2020)................................... 26

v
Richard G. Wight et al., Same-Sex Legal Marriage
and Psychological Well-Being: Findings from the
California Health Interview Survey,
103 Am. J. Pub. Health 339 (2013) ...................... 19
Servs. & Advoc. for GLBT Elders (SAGE),
Aging and the LGBT Community (2019) ....... 20, 33
Servs. & Advoc. for GLBT Elders (SAGE),
Out & Visible: The Experiences and Attitudes of
Lesbian, Gay, Bisexual and Transgender Older
Adults, Ages 45–75 (2014) .................................... 21
Soon Kyu Choi & Ilan H. Meyer, Williams Inst.,
LGBT Aging: A Review of Research Findings,
Needs, and Policy Implications (2016)........... 21, 33
When LGBT Elders Have No Place to Call Home,
SAGE Newsroom (June 14, 2018) .................. 27, 32

1
INTEREST OF AMICI CURIAE1
This case presents the question of whether private
agencies—funded with taxpayer dollars to provide
essential public services for at-risk segments of the
population—should be allowed to discriminate on the
basis of protected characteristics, notwithstanding
government prohibitions on such discrimination.
Amici are organizations representing older adults and
people with disabilities, who are particularly reliant
on services and supports provided by government
contractors, and who will be adversely affected by
Petitioners’ position.
Services and Advocacy for GLBT Elders (“SAGE”)
is the country’s oldest and largest organization
dedicated to improving the lives of lesbian, gay,
bisexual, and transgender (“LGBT”) older adults. In
conjunction with 30 affiliated organizations in 22
states and Puerto Rico, SAGE offers supportive
services and resources to LGBT older adults and their
caregivers, advocates for public policy changes that
address the needs of LGBT older people, and provides
training for organizations that serve LGBT older
adults. As part of its mission, SAGE provides services
to LGBT older adults who face discrimination when
they seek access to care.
Founded in 1954, the American Society on Aging
(“ASA”) is a nonprofit association of diverse
individuals bound by a common goal: to support the
No counsel for a party authored this brief in whole or in part,
and no person or entity, other than amici curiae, their members,
and their counsel, made a monetary contribution to the
preparation or submission of this brief. All parties have given
their written consent to this filing.
1

2
commitment and enhance the knowledge and skills of
those who seek to improve the quality of life of older
adults and their families. Because ASA’s members
wish to enhance the quality of life of all older adults,
and because discrimination of any kind erodes quality
of life, ASA has an interest in opposing all forms of
discrimination, including discrimination against
LGBTQ older adults.
Justice in Aging’s principal mission is to protect
the rights of low-income older adults. Through
advocacy, litigation, and the education and counseling
of legal aid attorneys and other local advocates,
Justice in Aging seeks to ensure the health and
economic security of older adults who have limited
income and resources. Since 1972, Justice in Aging
has worked to promote the independence and wellbeing of low-income elderly and persons with
disabilities, especially women, members of the
LGBTQ community, people of color, and people with
limited English proficiency. Justice in Aging works to
ensure access to benefits programs that allow lowincome older adults to live with dignity and
independence.
The National Asian Pacific Center on Aging
(“NAPCA”) is the only national nonprofit organization
with the mission to preserve and promote the dignity,
well-being, and quality of life of Asian Americans and
Pacific Islanders (“AAPI”) as they age. AAPI older
adults experience unique challenges, including a
history of discrimination and prejudice. NAPCA has
been their advocate for the past 40 years and
continues its commitment to supporting AAPI and
diverse older adults in overcoming barriers.

3
The National Council on Aging (“NCOA”) is a
trusted national leader working to ensure that every
person can age well, regardless of race, color, national
origin, sex, gender identity, sexual orientation, or
disability. Since 1950, our mission has not changed:
Improve the lives of millions of older adults, especially
those who are struggling. NCOA empowers people
with the best solutions to improve their own health
and economic security—and we
strengthen
government programs that we all depend on as we
age. Our work seeks to remove inequities and keep
all older adults healthy and safe.
The National Hispanic Council on Aging
(“NHCOA”) is the leading national organization
working to improve the lives of Hispanic older adults,
their families, and their caregivers. Headquartered in
Washington, D.C., NHCOA has been a strong voice
dedicated to promoting, educating, and advocating for
research, policy, and practice in the areas of economic
security, health, and housing for more than 50 years.
The National Indian Council on Aging, Inc.
(“NICOA”) is a 501(c)(3) nonprofit organization
founded in 1976 by members of the National Tribal
Chairmen’s Association who called for a national
organization focused on the needs of aging American
Indian and Alaska Native elders. The mission of
NICOA is to advocate for improved comprehensive
health, social services, and economic well-being for
American Indian and Alaska Native elders.
Southeast
Asia
Resource
Action
Center
(“SEARAC”) is a national civil rights organization
that empowers Cambodian, Laotian, and Vietnamese
American communities to create a socially just and
equitable society. As representatives of the largest

4
refugee community ever resettled in the United
States, SEARAC stands together with other refugee
communities, communities of color, and social justice
movements in pursuit of social equity. Because many
in SEARAC’s communities, especially elders, suffer
from a variety of challenges and barriers to accessing
essential services and support, SEARAC has an
interest in opposing all forms of discrimination.
The Disability & Aging Justice Clinic (“DAJC”) of
the City University of New York School of Law
represents low-income individuals with disabilities
and older adults in a variety of civil legal matters,
including discrimination in access to programs and
services, parental rights, prisoners’ rights, access to
healthcare, alternatives to guardianship, and
enhancing due process protections in areas that
include guardianship. The mission of the DAJC is to
promote and protect the civil rights, personhood, and
self-determination of individuals with disabilities and
older adults.
Access Living, founded in 1980, is one of the
nation’s largest, most experienced, and most
prominent disability rights organizations governed
and staffed by people with disabilities. As a Center
for Independent Living (“CIL”) established under the
federal Rehabilitation Act, Access Living’s statutorilymandated mission includes advocacy to ensure the
independence, integration, and full citizenship of
people with disabilities. In furtherance of its mission,
Access Living protects and advances—through
litigation and policy advocacy—the civil rights of
people with disabilities.
The American Association of People with
Disabilities (“AAPD”) works to increase the political

5
and economic power of people with disabilities, and to
advance their rights. A national cross-disability
organization, AAPD advocates for full recognition of
the rights of over 60 million Americans with
disabilities.
Founded in 1950, The Arc of the United States is
the nation’s largest community-based organization of
and for people with intellectual and developmental
disabilities (“I/DD”), with over 600 chapters
nationwide. The Arc promotes and protects the
human and civil rights of people with I/DD and
actively supports their full inclusion and participation
in the community throughout their lifetimes. The Arc
has a vital interest in ensuring that all individuals
with I/DD receive appropriate protections and
supports to which they are entitled by law.
The mission of the Association of Late-Deafened
Adults (“ALDA”) is to support the empowerment of
deafened people. Late-Deafened Adults are people
who have lost the ability to understand speech, with
or without hearing aids, after acquiring spoken
language. ALDA is committed to providing a support
network and a sense of belonging by sharing our
unique experiences, challenges, and coping strategies,
helping one another find practical solutions and
emotional support, and working together with other
organizations and service providers for our common
good.
The Autistic Self Advocacy Network (“ASAN”) is a
national, private, nonprofit organization, run by and
for autistic individuals.
ASAN provides public
education and promotes public policies that benefit
autistic individuals and others with developmental or
other disabilities, a disproportionate number of whom

6
are LGBTQ and/or do not meet typical gendered
expectations. ASAN’s advocacy activities include
combating stigma, discrimination, and violence
against autistic people and others with disabilities,
including in the workplace.
The Center for Public Representation (“CPR”) is a
public interest law firm that has assisted people with
disabilities for more than 40 years. CPR uses legal
strategies, systemic reform initiatives, and policy
advocacy to enforce civil rights and empower people
with disabilities to exercise choice in all aspects of
their lives. CPR is both a statewide and a nationwide
legal backup center that provides assistance and
support to attorneys representing people with
disabilities, and to federally-funded protection and
advocacy programs. CPR has litigated cases on behalf
of persons with disabilities in more than 20 states and
submitted amici briefs to the United States Supreme
Court and many courts of appeals in order to enforce
the constitutional and statutory rights of persons with
disabilities, including the right to be free from
discrimination under federal law.
The Civil Rights Education and Enforcement
Center (“CREEC”) is a national nonprofit membership
organization whose mission is to defend human and
civil rights secured by law and to ensure that everyone
can fully and independently participate in our
nation’s civic life without discrimination based on
race, gender, disability, religion, national origin, age,
sexual orientation, or gender identity.
CREEC
promotes its mission through education, advocacy,
and litigation nationwide on a broad array of civil
rights issues. A major focus of CREEC’s work is
ensuring that people with disabilities have access to

7
all programs, services, and benefits of public entities,
and that laws protecting the rights of people with
disabilities are effectively enforced to ensure equal
access and independence.
Disability Rights Advocates (“DRA”) is a nonprofit,
public interest law firm that specializes in high
impact civil rights litigation and other advocacy on
behalf of persons with disabilities throughout the
United States. DRA works to end discrimination in
areas such as access to public accommodations, public
services, employment, transportation, education, and
housing. DRA’s clients, staff, and board of directors
include people with various types of disabilities. With
offices in New York City and Berkeley, California,
DRA strives to protect the civil rights of people
with all types of disabilities nationwide.
The Disability Rights Education & Defense Fund
(“DREDF”), based in Berkeley, California, is a
national nonprofit law and policy center dedicated to
advancing and protecting the civil and human rights
of people with disabilities. Founded in 1979 by people
with disabilities and parents of children with
disabilities, DREDF remains board- and staff-led by
members of the communities for whom we
advocate. DREDF pursues its mission through
education, advocacy, and law reform efforts. DREDF
is nationally recognized for its expertise in the
interpretation of federal disability civil rights laws,
and has participated as amicus in numerous high
court matters involving those laws. Consistent with
its civil rights mission, DREDF supports legal
protections for all diversity and minority
communities, including the intersectional interests of

8
people within those communities who also have
disabilities.
Founded in 1972 as the Mental Health Law
Project, the Judge David L. Bazelon Center for Mental
Health Law (“Bazelon Center”) is a national nonprofit
advocacy organization that provides legal assistance
to individuals with mental disabilities. Through
litigation, public policy advocacy, education, and
training, the Bazelon Center works to advance the
rights and dignity of individuals with mental
disabilities in all aspects of life, including community
living, employment, education, healthcare, housing,
voting, parental and family rights, and other areas.
Little Lobbyists is a family-led national
organization founded in 2017 that advocates for
children with complex medical needs and disabilities
to have access to the healthcare, education, and
community inclusion they need to survive and thrive.
Little Lobbyists believes no family should be denied
access to healthcare, housing, or services as a result
of their disabilities, race, religion, or sexual identity
and orientation.
Mental Health America (“MHA”)—founded in
1909—is the nation’s leading community-based
nonprofit dedicated to addressing the needs of those
living with mental illness and to promoting the overall
mental health of all Americans. MHA’s work is driven
by our commitment to promote mental health as a
critical part of overall wellness. MHA has advocated
throughout its history for the rights of all individuals,
including those who may identify as LGBTQ, to have
access to the effective mental health services and
related supports they need without discrimination.

9
The National Association of the Deaf (“NAD”),
founded in 1880 by deaf and hard of hearing leaders,
is the oldest national civil rights organization in the
United States. The NAD’s mission is to preserve,
protect, and promote the civil, human, and linguistic
rights of 48 million deaf and hard of hearing people in
this country. The NAD is supported by affiliated state
organizations in 49 states and Washington, D.C., as
well as affiliated nonprofits serving various
demographics within the deaf and hard of
hearing community.
The NAD is dedicated to
ensuring equal access in every aspect of life.
The National Coalition for Latinxs with
Disabilities (Coalición Nacional para Latinxs con
Discapacidades, or “CNLD”) was established in 2017
as a volunteer national organization made up of
disabled Latinxs and allies who work toward a
seamless society in which the human rights of Latinxs
with disabilities are upheld and all their intersecting
identities are embraced—including disabled LGBTQ+
older adults. CNLD works in solidarity to affirm,
celebrate, and collectively uplift Latinxs with
disabilities.
National Council on Independent Living (“NCIL”)
advances independent living and the rights of people
with disabilities. NCIL envisions a world in which
people with disabilities are valued equally and
participate fully.
National Disability Institute (“NDI”) was
established in 2005 to address the deep economic
disparity that exists between people with and without
disabilities. NDI is dedicated exclusively to the
economic empowerment of people with disabilities.
Its mission is to collaborate and innovate to build a

10
better financial future for people with disabilities and
their families. NDI envisions a society in which
people with disabilities have the same opportunities
to achieve financial stability and independence as
people without disabilities.
The National Federation of the Blind (“NFB”) is
the oldest and largest organization of blind and lowvision people in the United States. Founded in 1940,
the NFB has grown to over 50,000 members. The
organization consists of affiliates and local chapters in
every state, the District of Columbia, and Puerto Rico.
The NFB devotes significant resources to advocacy,
education, research, and development of programs to
integrate the blind into society on terms of equality
and independence. The NFB actively engages in
litigation to protect the civil rights of the blind under
our nation’s laws.
A ruling that private agencies accepting public
funds must be allowed to discriminate on the basis of
any number of characteristics, including sexual
orientation, gender identity, religion, race, national
origin, sex, age, or disability, would violate the core
stated values of our country and undermine the
dignity and independence of older adults and people
with disabilities. Given amici’s interest in protecting
the rights and dignity of people who are older and/or
disabled, and who require access to the services and
supports provided by government contractors, amici
respectfully submit this brief in support of
Respondent City of Philadelphia.

11
SUMMARY OF THE ARGUMENT
Older adults and people with disabilities—
including those who identify as LGBTQ—need nondiscriminatory access to social services in order to live
in the community with dignity and respect. These
individuals are particularly reliant on services and
supports from government contractors, which provide
community-based programming, healthcare, meals,
transportation, housing, and other resources.
Older and disabled persons have faced significant
obstacles when attempting to access these vital
services and supports. They are often susceptible to
discrimination not only because of their age or
disability, but also due to other factors, like their race,
sex, or religion. Indeed, disabled and older people
identifying as LGBTQ confront particularly
heightened discrimination in access to care.
The ruling below should remain undisturbed.
Should the Court rule otherwise, organizations
providing important services to older adults and
people with disabilities would be given free rein to
refuse care, to disrupt services and supports, and to
otherwise discriminate based on their religious views,
causing severe physical, emotional, and psychological
harm to disabled people and older adults.
The relief that Petitioners seek would add insult
to injury to segments of the American population who
have already been subjected to discrimination and
isolation, and who are especially reliant on services
and supports delivered through government
contracts. This is especially so in the midst of the
COVID-19 pandemic, which finds older adults and
people with disabilities fighting on dual fronts—

12
fighting for basic care, on the one hand, as they fight
for their lives, on the other. Allowing publicly-funded
organizations and agencies to shun people based on
religious objections to serving particular individuals
will jeopardize the well-being, health, and even lives
of older and disabled persons.
The ruling Petitioners seek would strip away
access to services and supports from those who need
them the most. For these reasons, the lower court’s
decision should be affirmed.
ARGUMENT
I.

Older Adults and People with Disabilities
Are At-Risk Populations Who Need NonDiscriminatory Access to Services And
Supports In Order To Live With Dignity.

Government-funded discrimination will harm
older and/or disabled persons—a large segment of the
American population that relies on government
contractors for much-needed services and supports.
Older adults and persons with disabilities who are
LGBTQ, and especially in need of such social services
and supports, would be particularly harmed.
In the United States, the population age 65 and
older numbered 52.4 million in 2018 (the most recent
year for which data are available), representing more
than one in every seven Americans.2 Further, 61
million adults in the United States—approximately
Admin. on Aging, Admin. for Cmty. Living, 2019 Profile of Older
Americans 3 (2020) [hereinafter ACL, 2019 Profile of Older
Americans], available at https://acl.gov/sites/default/files/
Aging%20and%20Disability%20in%20America/2019ProfileOlde
rAmericans508.pdf.
2

13
one-fourth of the adult population—have a disability,
and an even greater percentage (34%) of older adults
report having a disability of some form, whether
difficulty in vision, hearing, cognition, ambulation,
self-care, or independent living.3
Not surprisingly, the need for services and
supports increases with age.4 People with disabilities,
moreover, similarly require assistance as they
continue living in their homes and communities.5
Older adults and people with disabilities thus rely on
the government and government contractors to
provide critical home- and community-based services,
including food and meal delivery services, affordable
housing, senior-center programming, transportation,
in-home support services, and in-home nursing care.

Id. at 19; Ctrs. for Disease Control & Prevention (CDC), Disability
Impacts All of Us (last updated Sept. 9, 2019) [hereinafter CDC,
Disability Impacts All of Us], https://www.cdc.gov/ncbddd/
disabilityandhealth/infographic-disability-impactsall.html#:~:text=61%20million%20adults%20in%20the,is%20hi
ghest%20in%20the%20South.
4 ACL, 2019 Profile of Older Americans, supra note 2, at 4. While
fewer than 20% of older adults between ages 65 and 74 need
assistance with daily activities, such as bathing or eating, this
number increases to 53% of women and 40% of men over age 85
who need such assistance. Am. Psychol. Ass’n, Older Adults’
Health and Age-Related Changes: Reality Versus Myth 3 (2017)
[hereinafter APA, Older Adults’ Health and Age-Related
Changes], available at https://www.apa.org/pi/aging/resources/
guides/myth-reality.pdf.
5 See CDC, Disability Impacts All of Us, supra note 3.
3

14
A.

The unique physical, financial, and
social conditions faced by older adults
and people with disabilities make them
particularly vulnerable to the effects of
discrimination.

When compared to the rest of the American
population, older and disabled persons frequently
have poorer physical and mental health, higher rates
of poverty, and weaker social support networks, all of
which make them particularly reliant on services and
supports from government contractors. That reliance,
in turn, makes them especially susceptible to the
negative
effects
of
government
contractor
discrimination.
Almost all older persons have at least one chronic
condition, and the vast majority have multiple
conditions.6 Leading chronic conditions among adults
age 65 and older include heart disease, diabetes,
cancer, stroke, and arthritis.7

Specifically, 92% of all older persons have a chronic condition,
and 77% have multiple conditions. APA, Older Adults’ Health
and Age-Related Changes, supra note 4, at 2.
7 ACL, 2019 Profile of Older Americans, supra note 2, at 17. In
light of these chronic health issues, it comes as no surprise that,
in 2018, 8.5 million people age 65 and older stayed overnight in
a hospital at least one night during the year—approximately
double the number of overnight hospital stays as those age 45 to
64. Id.
6

15
Functional disabilities also affect a large segment
of the American population.8 The prevalence of such
disabilities increases with age.9
Many disabled and older persons also live in
extreme poverty. In 2018, nearly one in ten older
adults lived below the poverty level.10 And studies
have shown that people with disabilities are often
destined to live in poverty and experience high
unemployment.11 In fact, people with disabilities live
in poverty at more than twice the rate of people
without disabilities.12
Making matters worse, disabled and older
Americans frequently have weaker social support
For example, of those who have a disability: 13.7% have a
mobility disability, with serious difficulty walking or climbing
stairs; 10.8% have a cognition disability with serious difficulty
concentrating, remembering, or making decisions; 6.8% have an
independent living disability, making it difficult for them to do
errands alone; 5.9% are deaf or has serious difficulty hearing;
4.6% have a vision disability, as evidenced by blindness or
serious difficulty seeing even when wearing glasses; and 3.6%
have a self-care disability, with difficulty dressing or bathing
themselves. CDC, Disability Impacts All of Us, supra note 3.
9 In 2018, 49% of people age 75 and older reported a difficulty in
physical functioning. ACL, 2019 Profile of Older Americans,
supra note 2, at 19. This percentage is more than twice as large
as for the age group 45 to 64 (19%). Id.
10 Id. at 14.
11 Nat’l Council on Disability, Highlighting Disability / Poverty
Connection, NCD Urges Congress to Alter Federal Policies that
Disadvantage People with Disabilities (Oct. 26, 2017),
https://ncd.gov/newsroom/2017/disability-poverty-connection2017-progress-report-release.
12 Only 32% of working-age people with disabilities are employed,
compared with 73% of those without disabilities. Id. And more
than 65% of the 17.9 million working-age adults with disabilities
participate in at least one safety net or income support program. Id.
8

16
networks. As people age, many find themselves alone
more often than when they were younger.
Approximately 28 percent of older adults in the
United States, or 14.7 million people, live completely
alone.13 Older adults find themselves unexpectedly
alone due to the death of a spouse or partner,
separation from friends or family, retirement, loss of
mobility, or loss of transportation. The resultant
social isolation and loneliness frequently trigger a
decline in physical and mental health. As a result,
older adults living alone are at a higher risk of a
variety of health conditions, including clinical
depression, anxiety, cognitive decline, Alzheimer’s
disease, and even death.14
Newly-acquired disabilities can also augment
issues of social isolation and loneliness. Hearing
impairment, which is widespread among older
adults—affecting almost 50 percent of those aged 75
and older—can be an impediment to social
interaction.15 Vision changes among aging adults,
which can result in difficulty driving and other issues,
likewise lead to isolation.16

ACL, 2019 Profile of Older Americans, supra note 2, at 7. The
proportion living alone increases with advanced age for both men
and women, with, for example, 44% of women age 75 and older
living alone. Id.
14 Nat’l Inst. on Aging, U.S. Dep’t of Health & Hum. Servs., Social
isolation, loneliness in older people pose health risks (Apr. 23,
2019), https://www.nia.nih.gov/news/social-isolation-lonelinessolder-people-pose-healthrisks#:~:text=Research%20has%20linked%20social%20isolation
,Alzheimer's%20disease%2C%20and%20even%20death.
15 APA, Older Adults’ Health and Age-Related Changes, supra
note 4, at 2-3.
16 See id. at 3.
13

17
Social distancing and shelter-in-place orders in
response to the COVID-19 pandemic have only
heightened these issues of social isolation and
loneliness among older and disabled persons. And
that’s not to mention people who are older and/or
disabled often face severe health issues stemming
from the disease itself.
Research from the CDC indicates that older
people are at a greater risk for severe illness due to
COVID-19. In fact, eight out of ten COVID-19 related
deaths reported in the United States have been among
adults aged 65 years and older.17 Many of these older
adults lived in congregate care facilities, such as
nursing homes, long-term care facilities, or senior
living communities, where they had an increased risk
of contracting COVID-19.
People with disabilities also face unique health
risks during the COVID-19 pandemic. Underlying
medical conditions are prevalent among those with
disabilities.18 And the CDC has warned that the
following groups are at an increased risk of becoming
infected with COVID-19: (1) people who have limited
mobility or who cannot avoid coming into close contact
with others who may be infected, such as direct
Older Adults, Ctrs. for Disease Control & Prevention (CDC) (last
updated Aug. 16, 2020), https://www.cdc.gov/coronavirus/2019-ncov/
need-extra-precautions/older-adults.html?CDC_AA_refVal=https%
3A%2F%2Fwww.cdc.gov%2Fcoronavirus%2F2019-ncov%2Fspecificgroups%2Fhigh-risk-complications%2Folder-adults.html.
18 Adults with disabilities are three times more likely than adults
without disabilities to have heart disease, stroke, diabetes, or
cancer. People with Disabilities, Ctrs. for Disease Control &
Prevention (CDC) (last updated Apr. 7, 2020), https://www.cdc.gov/
coronavirus/2019-ncov/need-extra-precautions/people-withdisabilities.html.
17

18
support providers and family members; (2) people who
have trouble understanding information or practicing
preventive measures, such as hand washing and
social distancing; and (3) people who may not be able
to communicate symptoms of illness.19
As a result of the increased risk of disease, in
conjunction with fewer financial resources and
weaker social support networks (which are further
weakened by stay-at-home orders), disabled persons
and older adults are even more reliant than usual on
services and supports provided by government
contractors. And that means they are especially
susceptible to any attendant discrimination during
these trying times.
B.

LGBTQ older adults and people with
disabilities are particularly vulnerable
to discrimination.

The threat of discrimination that older and
disabled persons generally face is compounded for
those who identify as LGBTQ, and whose physical,
mental, financial, and social status makes them even
more reliant on social services supports from
government contractors.
LGBTQ older adults tend to be in poorer physical
health than their peers. Studies have found “higher
rates of diabetes, hypertension, [and] disability . . .
among aging gay men, lesbians, and bisexual people
than among older straight adults.”20 Other “[s]tudies
Id.
Erin Fitzgerald, Nat’l Gay & Lesbian Task Force, No
Golden Years at the End of the Rainbow: How a Lifetime of
Discrimination
Compounds
Economic
and
Health
Disparities for LGBT Older Adults 12 (2013), available at
19
20

19
suggest higher levels of chronic and other health
problems among LGBT older adults, including
asthma, diabetes, HIV/AIDS, obesity, rheumatoid
arthritis and . . . cancer.”21
LGBTQ older adults also tend to “have worse
mental health outcomes than their heterosexual
counterparts.”22 Indeed, according to one study, when
compared to others, LGB adults are two times more
likely, and transgender adults are nearly four times
as likely to have a mental health condition during
their lifetime.23 This reflects the fact that LGBTQ
people have endured “stressors and challenges not
experienced
by
heterosexuals,”
such
as
discrimination, rejection, difficulty accepting their
sexual orientation, and the need to conceal their
orientation from others.24
The problems of poor physical and mental health
are compounded by the fact that LGBTQ older adults
typically have fewer financial resources than other
https://static1.squarespace.com/static/566c7f0c2399a3bdabb575
53/t/566caf4f841abafcc8e7ff22/1449963343350/2013-TF-NoGolden-Years.pdf.
21 Movement Advancement Project (MAP) et al., LGBT Older
Adults and Health Disparities 2 (2010), available at
https://www.sageusa.org/wp-content/uploads/2018/06/2010-lgbtolder-adults-and-health-disparities.pdf.
22 Richard G. Wight et al., Same-Sex Legal Marriage and
Psychological Well-Being: Findings from the California Health
Interview Survey, 103 Am. J. Pub. Health 339, 339 (2013),
available at
www.ncbi.nlm.nih.gov/pmc/articles/PMC3558785/pdf/AJPH.2
012.301113.pdf.
23
LGBTQI, Nat’l Alliance on Mental Illness (2020),
www.nami.org/Find-Support/LGBTQ.
24 Wight et al., supra note 22, at 339.

20
older adults. LGBTQ older people have average
household incomes that are much lower than their
heterosexual and cisgender counterparts.25 Indeed, a
recent study found that nearly one-third of LGBTQ
older adults aged 65 or older, and 48 percent of
transgender older adults, have incomes at or below
200 percent of the federal poverty line, compared to
one-quarter of all non-LGBTQ older adults.26
The lingering effects of past discrimination further
increase older LGBTQ adults’ reliance on government
contractors for social services. Many heterosexual
older adults, for example, can rely on family members,
especially spouses and children, for assistance with
their medical and financial matters. Yet, for LGBTQ
adults, who were long excluded from the institution of
marriage, only about 10 percent are married.27
Moreover, many states have long engaged in practices
that impede the ability of same-sex couples to create
families with children, including restricting the
ability of LGBTQ people to adopt.28 Many LGBTQ

Servs. & Advoc. for GLBT Elders (SAGE), Aging and the LGBT
Community 2 (2019), available at https://www.sageusa.org/wpcontent/uploads/2019/03/aging-and-the-lgbt-community.pdf.
26 Movement Advancement Project (MAP) & Servs. & Advoc. for
GLBT Elders (SAGE), Understanding Issues Facing LGBT Older
Adults 10 (2017), available at www.lgbtmap.org/file/
understanding-issues-facing-lgbt-older-adults.pdf.
27 Jeffrey M. Jones, In U.S., 10.2% of LGBT Adults Now Married
to Same-Sex Spouse, Gallup (June 22, 2017), news.gallup.com/
poll/212702/lgbt-adults-married-sex-spouse.aspx.
28 Foster and Adoption Laws, Movement Advancement Project (MAP)
(last updated Aug. 18, 2020), www.lgbtmap.org/equalitymaps/foster_and_adoption_laws.
25

21
elders also remain estranged from their families of
origin.29
As a result, LGBTQ elders are twice as likely as
their contemporaries to live alone, half as likely to
have close relatives to call for help, and four times less
likely to have children to assist them.30 A survey of
older LGBTQ people by AARP found that three in four
respondents were concerned about having enough
support from family and friends as they age.31 And
heartbreakingly, in another study, nearly one-quarter
of LGBTQ older adults reported that they have “no
one” to rely on when they are ill.32
Soon Kyu Choi & Ilan H. Meyer, Williams Inst., LGBT Aging:
A Review of Research Findings, Needs, and Policy Implications 8
(2016) [hereinafter Williams LGBT Aging Report] (citing
Movement Advancement Project (MAP) & Servs. & Advoc. for
GLBT Elders (SAGE), Improving the Lives of LGBT Older Adults
(2010) [hereinafter MAP & SAGE, Improving the Lives of LGBT
Older
Adults],
available
at
www.lgbtmap.org/file/
improving-the-lives-of-lgbt-older-adults.pdf),
available
at
williamsinstitute.law.ucla.edu/wp-content/uploads/LGBTAging-Aug-2016.pdf.
30 See MAP & SAGE, Improving the Lives of LGBT Older
Adults, supra note 29, at 6-7; see also Servs. & Advoc. for
GLBT Elders (SAGE), Out & Visible: The Experiences and
Attitudes of Lesbian, Gay, Bisexual and Transgender Older
Adults, Ages 45-75, at 17-18 (2014), available at
https://www.sageusa.org/wp-content/uploads/2018/05/
sageusa-out-visible-lgbt-market-research-full-report.pdf
(collecting statistics comparing isolation experienced by
LGBT and non-LGBT older adults).
31 Angela Houghton, Maintaining Dignity: A Survey of LGBT
Adults Age 45 and Older, AARP Res. (Mar. 2018), www.aarp.org/
research/topics/life/info-2018/maintaining-dignity-lgbt.html.
32 MetLife Mature Mkt. Inst. & Am. Soc’y on Aging, Still
Out, Still Aging: The MetLife Study of Lesbian, Gay, Bisexual,
and Transgender Baby Boomers 15 (2010), available at
29

22
LGBTQ disabled persons, who are marginalized on
at least two fronts, likewise experience great
disparities in health, economic, and social outcomes.
For instance, in a comprehensive 2015 survey
conducted by the National Center for Transgender
Equality (“NCTE”), transgender people with
disabilities were more likely to experience
discrimination in healthcare and social services
settings.33 Transgender respondents with disabilities
were also nearly twice as likely to “currently
experience psychological distress,” as compared to
those without disabilities.34 And transgender people
with disabilities experienced heightened economic
instability, with 45 percent living in poverty,
compared to 12 percent of the U.S. population as a
whole.35 The confluence of these factors is a social
determinant of health, particularly for individuals
who also face rejection from family members because
of their disability and gender identities.
The COVID-19 pandemic further threatens
LGBTQ disabled and older adult communities.
LGBTQ older adults and disabled persons experience
physical health disparities and preexisting conditions
that make them more susceptible to complications

https://www.sageusa.org/wp-content/uploads/2018/05/sageusastill-out-still-aging.pdf.
33 Disability Rts. Educ. & Def. Fund (DREDF), Health Disparities
at the Intersection of Disability and Gender Identity: A
Framework and Literature Review 5 (2018), available at
https://dredf.org/wp-content/uploads/2018/07/HealthDisparities-at-the-Intersection-of-Disability-and-GenderIdentity.pdf.
34 Id. at 4.
35 Id. at 6.

23
from COVID-19.36
Recent data indicate that
approximately one-third of LGBTQ people age 65 and
older are in poor or fair health, with many
experiencing asthma, diabetes, heart disease, and
other complications that make them more vulnerable
to serious COVID-19-related complications.37
LGBTQ older adults and people with disabilities
also fear or experience discrimination by healthcare
providers and caregivers in ways that make them
more vulnerable during this crisis. And severe social
isolation—already a challenge for some LGBTQ older
adults and disabled persons—has increased as a
result of shelter-in-place orders and quarantine rules.
While these public health and social distancing efforts
are designed to slow the spread of COVID-19, they
often equate to social isolation for LGBTQ older adults
and disabled persons, who may “have literally nobody
to reach out to for connection and support.”38

Movement Advancement Project (MAP), Servs. & Advoc. for
GLBT Elders (SAGE), & Ctr. for Am. Progress, LGBT Older
People & COVID-19: Addressing Higher Risk, Social Isolation,
and Discrimination 2 (2020) [hereinafter MAP & SAGE, LGBT
Older People & COVID-19], available at https://www.sageusa.org/
wp-content/uploads/2020/05/2020-lgbtq-older-adults-covid.pdf.
37 Ilan H. Meyer & Soon Kyu Choi, Williams Inst., Vulnerabilities
to COVID-19 among Older LGBT Adults in California 1-2 (2020),
available at https://williamsinstitute.law.ucla.edu/wp-content/
uploads/Older-LGB-COVID-CA-Apr-2020.pdf.
38 MAP & SAGE, LGBT Older People & COVID-19, supra note
36, at 3.
36

24
II.

Older Adults and People with Disabilities
Necessarily
Rely
on
Government
Contractors to Provide Critical Services
and Supports.

Older adults and people with disabilities,
including those who may identify as LGBTQ, are
particularly reliant on government contractors to
meet their basic needs. At the federal, state, and local
levels, government contractors, using taxpayer
dollars, spend a substantial amount of money on
social services support, including food, healthcare,
chore assistance, transportation, and other resources
that are vitally important to the health and well-being
of older adults and disabled persons. Because many
government contractors have religious affiliations,
older adults and disabled persons are susceptible to
discriminatory policies these government contractors
choose to adopt.
By way of background, the Department of Health
and Human Services (“HHS”) devotes millions of
dollars’ worth of critical services and supports to
millions of disabled people and older adults across the
country through the Administration for Community
Living (“ACL”).39 ACL, in turn, administers programs
through its Administration on Aging (“AoA”).40 The
See generally Budget, Admin. for Cmty. Living (last updated
June 9, 2020), https://acl.gov/about-acl/budget.
40 Through the Independent Living Services (“ILS”) program,
ACL also administers grants to support disabled people. More
than $25.3 million was provided to states and territories in 2019
“to provide, improve, and expand statewide independent living
services.” Admin. for Cmty. Living, Annual Report on Centers for
Independent Living 2 (2020), available at https://acl.gov/sites/
default/files/programs/2020-04/AnnualReportCILsFinal%202018.pdf.
39

25
AoA “helps states develop comprehensive service
systems which are administered by a national
network of 56 state agencies on aging, 629 area
agencies on aging, [and] nearly 20,000 service
providers.”41
Increasingly, these aging and disability networks
are working together at the state and local levels. The
area agencies on aging (“AAA”), in particular, often
contract with private organizations, hiring or funding
them to provide services and resources at the regional
and local levels to help older adults thrive and remain
independent. AAAs are primarily responsible for a
geographic area that is either a city, a single county,
or a multi-county district.42
Local and municipal governments provide
additional funding and support for older and disabled
persons by partnering with the AAAs and contracting
with local service providers to ensure the availability
of support services.43 The resultant network of aging
and disability organizations provides resources and

And through the Centers for Independent Living (“CIL”)
program, direct funding was provided for grants to 284 CILs,
which are private nonprofit agencies providing services for
significantly disabled individuals. Id. In 2019, appropriations
for the CIL program amounted to $90.8 million. Id.
41 ACL, 2019 Profile of Older Americans, supra note 2, at 2.
42 Area Agencies on Aging, Admin. for Cmty. Living (last updated
Apr. 29, 2017), https://acl.gov/programs/aging-and-disabilitynetworks/area-agencies-aging.
43 See, e.g., Mayor’s Commission on Aging: Partners and
Providers, City of Philadelphia (last updated Oct. 23, 2018),
https://www.phila.gov/departments/mayors-commission-onaging/partners-and-providers/.

26
services in virtually every area of older adults’ and
disabled people’s lives.44
Notably, many of the private organizations that
receive government funding through this network are
faith-based organizations. As ACL has publicized:
“Religious and faith-based organizations are
important partners with unique expertise that is
crucial to advancing HHS’s mission of protecting and
enhancing the health and well-being of Americans.”45
Although
the
prevalence
of
faith-based
organizations providing services to older or disabled
persons is not always readily visible to the public
because many providers have adopted secular names
to attract a broader market, a majority of
organizations making arrangements for community
AAAs and local service providers offer, for instance, homedelivered meals, nutrition education, farmers’ market coupons,
home- and community-based alternatives to long-term care
facilities, senior center programming, personal care (such as help
bathing, dressing, shopping, walking, housekeeping, and eating),
home health services (such as changing wound dressings,
checking vital signs, cleaning catheters, and providing tube
feedings), adult daycare, home repair and modifications,
adaptive and assistive devices, transportation, emergency
response systems, legal assistance, financial assistance,
insurance counseling, and wellness programs.
Eldercare
Locator:
Services
Available,
Admin.
on
Aging,
https://eldercare.acl.gov/Public/About/Aging_Network/Services.
aspx; see also Programs and Servs., W. Res. Area Agency on
Aging, https://www.areaagingsolutions.org/programs-services/.
45 Request for Information from the Center for Faith-Based and
Neighborhood Partnerships, Office of Intergovernmental and
External Affairs, HHS, Admin. for Cmty. Living (last updated
May 7, 2020), https://acl.gov/news-and-events/announcements/
request-information-center-faith-based-and-neighborhoodpartnerships.
44

27
programming, meals, healthcare, and housing are
religiously-affiliated organizations.46 For example,
approximately 85 percent of nonprofit continuing-care
retirement communities are affiliated with a
religion.47 And faith-based facilities provide the
greatest number of affordable housing units serving
low-income seniors.48
Older adults and people with disabilities rely on
the services those religiously-affiliated contractors
provide, and all the more so now because of
COVID-19. Aging and Disability Resource Centers
nationwide report “unprecedented demand” for care
and supports.49 As of May 2020, HHS had allocated
$955 million in grants through ACL “to help meet the
needs of older adults and people with disabilities as
communities implement measures to prevent the

See Michael Adams, Pushing for Equality: LGBT Elders Need
Discrimination-Free Access to Care in Community, Aging Today
(2019), available at https://www.lgbtagingcenter.org/resources/
pdfs/Pushing%20for%20Equality_LGBTElders%20need%20disc
riming%20free%20access%20to%20care%20in%20community.pdf.
47 See, e.g., When LGBT Elders Have No Place to Call Home,
SAGE Newsroom (June 14, 2018) [hereinafter SAGE, When
LGBT
Elders
Have
No
Place
to
Call
Home],
https://www.sageusa.org/news-posts/when-lgbt-elders-have-noplace-to-call-home/.
48 Id.
49 Press Release, HHS Announces Nearly $1 Billion in CARES
Act Grants to Support Older Adults and People with Disabilities
in the Community During the COVID-19 Emergency, U.S. Dep’t
of Health & Hum. Servs. (Apr. 21, 2020) [hereinafter HHS Press
Release],
https://www.hhs.gov/about/news/2020/04/21/hhsannounces-nearly-1-billion-cares-act-grants-support-olderadults-people-with-disabilities-community-during-covid-19emergency.html.
46

28
spread of COVID-19.”50 The programs funded include
those provided by “faith-based organizations.”51
For example, faith-based contractors are offering
mobile meal delivery programs that allow disabled
and older adults to receive food safely in their homes
rather than having to go to grocery stores.52 Such
programs have the added benefit of preventing older
and disabled persons from needing to seek such
services from nursing homes or congregate care
facilities, where they may be more susceptible to
COVID-19.53
Whether facing a global pandemic, or otherwise
simply seeking to live in their homes and communities
Id.
Id. The ACL’s CARES Act funding includes $200 million for
Home and Community Based Services, including personal care
assistance, help with household chores and grocery shopping,
transportation to essential services (such as grocery stores,
banks, or doctors), and case management; $480 million for homedelivered meals for older adults; $85 million for CILs to provide
direct and immediate support and services to individuals with
disabilities who are experiencing disruptions to their
independent, community-based living due to the COVID-19
pandemic; $20 million for nutrition and related services for
Native American Programs; $100 million for the National Family
Caregiver Support Program to expand a range of services that
help family and informal caregivers provide support for their
loved ones at home; $20 million to support State Long-term Care
Ombudsman programs in providing consumer advocacy services
for residents of long-term care facilities; and $50 million for
Aging and Disability Resource Centers. Id.
52 See, e.g., Press Release, Elderly Services moves to mobile meal
delivery amid pandemic, Archdiocese of Miami (Mar. 16, 2020),
https://www.miamiarch.org/CatholicDiocese.php?op=Article_eld
erly-services-moves-to-mobile-meal-delivery-amid-pandemic.
53 See id.
50
51

29
with dignity and respect, older adults and disabled
people throughout the United States who rely on vital
services and supports from religiously-affiliated
contractors must be guaranteed access to them
without fear that they will be excluded or
discriminated against because of who they are.
III.

Allowing Government Contractors to
Discriminate Against Older Adults
and People with Disabilities on the
Basis of Protected Characteristics
Violates Our Nation’s Core Stated
Values and Policies, and Would
Cause Significant Harm.

Publicly-funded services should be available to
any older adult or disabled person in need. But the
ruling that Petitioners seek here would allow
contractors to raise religious objections to fulfilling
the basic needs of these populations—all while they
continue to accept taxpayer funds. This violates
fundamental principles of non-discrimination in
government contracting, many of which were
designed specifically to aid older adults and disabled
people. It would also decrease the total amount of
services and supports available to older and disabled
persons.
In short, ruling for Petitioners would
authorize government-funded discrimination and
create a scenario where some seniors and disabled
citizens have nowhere to obtain the services and
supports they need.
For decades, the federal government has
maintained a firm, stated policy that it will not award
contracts, funded by taxpayer dollars, to government

30
contractors who discriminate. At the federal level, a
series of statutes, regulations, and policies provide
important nondiscrimination requirements for
federally-funded programs administered by HHS.
The Civil Rights Act of 1964 prohibits discrimination
in all federally-funded services based on race, color,
and national origin; Title IX protects individuals from
discrimination based on sex in federally-funded
educational institutions; Section 504 of the
Rehabilitation Act of 1973 prohibits discrimination
based on disability by organizations receiving federal
funding; and the Age Discrimination Act of 1975
prohibits discrimination based on age in programs
and activities receiving federal financial assistance.
Likewise, beginning with President Franklin D.
Roosevelt, the Executive Branch has maintained that
it will not buy goods and services from, and will not
pay
taxpayer dollars to,
contractors that
54
discriminate.
By Executive Orders dating back to
the Kennedy era, contractors must, as a condition of
doing business with the government, agree to refrain
from discrimination.55 While initially focused on
discrimination on the basis of race, creed, color, and
national origin, these efforts to promote equality have
expanded in modern times. In 2014, for example,
President Obama ordered that any business wishing
to contract with the federal government would be
required to agree not to discriminate on the basis of
sexual orientation or gender identity.56
These policies and laws reflect the nation’s core
stated values, which are designed to ensure equality
See Exec. Order No. 9,346, 8 Fed. Reg. 7183 (May 27, 1943).
See Exec. Order No. 10,925, 26 Fed. Reg. 1977 (Mar. 6, 1961).
56 See Exec. Order No. 13,672, 79 Fed. Reg. 42971 (July 21, 2014).
54
55

31
for older adults and people with disabilities. Older
adults particularly need services and supports from
government contractors, as they are an identifiable
minority group that has been subjected to various
forms of discrimination. As one author concisely
recognized:
In many respects the aged show
characteristics of a minority group. They
are subject to categorical discrimination,
they have relatively high visibility, and,
in many parts of our society, they
constitute a functioning subgroup.
Stereotypes are held about the group,
and individuals are judged thereby.
Prejudice is not uncommon . . . .57
Similarly, with respect to disabled people,
“historically, society has tended to isolate and
segregate individuals with disabilities, and, despite
some improvements, such forms of discrimination
against individuals with disabilities continue to be a
serious and pervasive social problem.”58
If the lower court’s decision is overturned,
providers of important services and supports for older
and disabled persons, many of which are run by
religious nonprofit organizations, would be given
broad license to discriminate in a range of ways—
including
disability
discrimination,59
age
Leonard Z. Breen, The Aging Individual, in Handbook of Soc.
Gerontology 145, 157 (Clark Tibbitts ed., 1960).
58 42 U.S.C. § 12101(a)(2) (2018).
59 People with disabilities have long faced discrimination
motivated by religious beliefs. United States Representative
Anthony Coelho, the principal sponsor of the ADA and a person
with epilepsy, personally faced religiously-based discrimination
57

32
discrimination, discrimination on the basis of sexual
orientation and gender identity, discrimination
against religious minorities, discrimination against
people from particular countries, and discrimination
on the basis of race. In this manner, older and
disabled individuals would be prevented access to the
services and supports they need. Indeed, permitting
government contractors to discriminate could mean
that some older and disabled persons—and especially
those who identify as LGBTQ—would have nowhere
else to obtain essential services.60
The physical, psychological, and emotional toll
that such government-funded discrimination would
exert on older adults and people with disabilities
would have lasting, damaging effects. Studies have
shown that people who experience discrimination may
due to his disability. Americans with Disabilities Act of 1988:
Joint Hearing on S. 2345 Before the Subcomm. on the
Handicapped of the S. Comm. on Lab. & Hum. Res. & the
Subcomm. on Select Educ. of the H. Comm. on Educ. & Lab.,
100th Cong. 940 (1988) (statement of Rep. Tony Coelho) (“I was
not able to become a Catholic priest, because my church did not,
at the time, permit epileptics to be priests.”).
Business
establishments operated by religious groups have refused service
to blind people based on religious beliefs. Stevens v. Optimum
Health Inst., 810 F. Supp. 2d 1074, 1081, 1089 (S.D. Cal. 2011)
(health institute operated by religious organization excluded
blind woman and her guide dog because she “posed an
unacceptable risk of disrupting the spiritual path of others in
attendance” and because “OHI’s grounds are sacred but [guide
dogs] are not”). Further, while being HIV positive is a disability
under the ADA, some have used religious beliefs to justify
discrimination against HIV-positive individuals. E.g., Bragdon
v. Abbott, 524 U.S. 624, 641 (1998); Stormans, Inc. v. Selecky, 586
F.3d 1109, 1118 n.7 (9th Cir. 2009).
60 See, e.g., SAGE, When LGBT Elders Have No Place to Call
Home, supra note 47.

33
not even seek the services and supports they need, out
of fear of rejection.61
The experiences of LGBTQ older adults are a
prime example. As a result of actual or feared
discrimination, LGBTQ older people access essential
services much less frequently than the general aging
population, including services such as visiting nurses,
food stamps, senior centers, and meal programs.
Because they shy away from services that could
otherwise be helpful, they receive diminished social
support, which, in turn, has been correlated with
health problems, substance abuse, necessary
institutionalization, and even early death.62
For some LGBTQ elders, the intersection of their
sexual orientation/gender identity and other
characteristics can heighten actual or perceived
discrimination. For example, when compared to white
LGBTQ older people, African American and Hispanic
LGBTQ older people show even greater fear of
discrimination and stigma, expressing serious
concerns about being treated unfairly when seeking
access to care and services.63 They also worry about
how their identities could negatively impact the
quality of services and supports they receive. LGBTQ
people of color thus face discrimination stemming not
Williams LGBT Aging Report, supra note 29, at 36; see
generally Ilan H. Meyer, Prejudice, Social Stress, and Mental
Health in Lesbian, Gay, and Bisexual Populations: Conceptual
Issues and Research Evidence, 129 Psychol. Bull. 674, 680-81
(2003).
62 SAGE, Aging and the LGBT Community, supra note 25, at 2.
63 Hum. Rts. Campaign (HRC) & Servs. & Advoc. for GLBT
Elders (SAGE), COVID-19 & LGBTQ Older People 1 (2020),
available at https://www.sageusa.org/wp-content/uploads/2020/
04/covid19-elder-issuebrief-032720b-1-1.pdf.
61

34
only from their sexual orientation and gender
identity, but from their racial or ethnic identity as
well.64
Older and disabled persons of every color, creed,
sexual orientation, and gender identity have a
heightened need for services and supports, especially
in the era of COVID-19. And although there is never
a right time to grant government contractors and
service providers a broad license to discriminate, a
global pandemic that disproportionately affects older
adults and those with disabilities is plainly the wrong
time to do so. Service providers should not be invited
to take taxpayer dollars and turn people away from
health and human services just because of who they
are. All older and disabled persons matter, regardless
of their race, sex, sexual orientation, gender identity,
national origin, religion, age, or disability. And they
should be able to live their lives with dignity and
respect.
CONCLUSION
For the foregoing reasons, amici respectfully
submit that the judgment of the United States Court
of Appeals for the Third Circuit should be affirmed.

64

Houghton, supra note 31.

35
Respectfully submitted,
LAUREN S. KULEY
Counsel of Record
MARQUES P.D. RICHESON
DYLAN J. YÉPEZ
SQUIRE PATTON BOGGS (US) LLP
201 E. Fourth St.
Suite 1900
Cincinnati, OH 45202
(513) 361-1200
lauren.kuley@squirepb.com

Counsel for Amici Curiae
August 20, 2020

